1835 Market Street
Suite 1050
Philadelphia, PA 19103
(215) 661-1900
Fax: (215) 279-9394
www.flastergreenberg.com

JEFFREY A. COHEN, ESQUIRE
Member of the NJ, PA & NY Bar
Direct Dial: (856) 382-2240
E-Mail: jeff.cohen@flastergreenberg.com

January 27, 2021
VIA ELECTRONIC FILING
U.S. Clerk’s Office
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Construction Cost Data, L.L.C., et al., Petitioners v. The Gordian Group, Inc.,
et al. – Case No: 20-952

Dear Sir or Madam,
We represent the Respondents, the Gordian Group, Inc. and R.S. Means Company, LLC,
in the above-captioned matter. We write to respectfully request a two week extension of time of
Respondents’ deadline to file a brief in opposition to the petition for writ of certiorari, pursuant to
Rule 15.3 and Rule 30.4 of the Rules of the Supreme Court of the United States. Presently,
Respondents’ brief in opposition is due on February 16, 2021. If this request is granted,
Respondents’ brief would be due on March 2, 2021. The Petitioners do not oppose this request.
The extension of time is justified for two reasons. First, my colleague, Eric Clendening,
Esq., who has worked on this case since August 2015 and is significantly involved in drafting the
Respondents’ brief in opposition to the petition, recently dealt with a family medical emergency,
and he was out of the office and dealing with this family matter for two weeks in January. Second,
on Sunday, January 17, 2021, our law firm experienced an IT event that affected the operability of
our computer systems. The firm responded to the event immediately and in doing so proactively
took some of our systems offline. That included access to electronic files, and our ability to work
on this case has been materially impaired. Presently, we still do not have access to the electronic
files, and we anticipate regaining access in short order. As a result of these events, we respectfully
request a two week extension to file our brief in opposition to the petition for writ of certiorari.

U.S. Clerk of the Supreme Court
January 27, 2021
Page 2
We are grateful for your consideration of this request, and please let us know if any further
information is needed regarding any of the foregoing.
Respectfully submitted,

Jeffrey A. Cohen
JAC/lm
cc:
Nolan C. Knight (via email)
John Dalston Smith Gilmour (via email)

